                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
April 11, 2011                                                               Kansas City, Missouri 64106


Report Number: A-07-11-00347

Mr. Pat Shiverdecker
Senior Vice President, Corporate Strategy
Mutual of Omaha Insurance Company
Mutual of Omaha Plaza
Omaha, NE 68175

Dear Mr. Shiverdecker:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Qualified Pension Plan at Mutual of Omaha
Insurance Company, A Terminated Medicare Contractor, for the Period January 1, 1992, to
January 1, 2008. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00347
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Pat Shiverdecker

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL


 REVIEW OF THE QUALIFIED PENSION
    PLAN AT MUTUAL OF OMAHA
INSURANCE COMPANY, A TERMINATED
  MEDICARE CONTRACTOR, FOR THE
     PERIOD JANUARY 1, 1992,
       TO JANUARY 1, 2008




                        Daniel R. Levinson
                         Inspector General

                            April 2011
                          A-07-11-00347
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Mutual of Omaha Insurance Company (Mutual) administered Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until
the contractual relationship was terminated on November 5, 2007. The effective closing date for
the Medicare segment was January 1, 2008.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.
Furthermore, in situations such as contract terminations, the Medicare contracts require
contractors to identify excess Medicare pension assets/liabilities, in accordance with CAS 413.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

Pension Closing Agreement

In resolution of our prior pension segmentation report (A-07-94-00742, issued July 17, 1995),
CMS prepared and provided Mutual with a pension closing agreement to establish a final
settlement of the January 1, 1992, Medicare segment assets. As of the conclusion of our
fieldwork, this closing agreement had not been executed.

OBJECTIVE

Our objective was to determine whether Mutual complied with Federal requirements and the
Medicare contract’s pension segmentation requirements when:

   •   using the January 1, 1992, Medicare segment asset value established by the pending
       pension closing agreement between Mutual and CMS,

   •   updating the Medicare segment’s pension assets from January 1, 1992, to
       January 1, 2008, and

   •   determining Medicare’s share of the Medicare segment excess pension assets/liabilities as
       a result of the termination of the Medicare contract.




                                                 i
SUMMARY OF FINDINGS

Mutual used the January 1, 1992, Medicare segment asset value established by the pending
pension closing agreement between Mutual and CMS; however, Mutual did not always comply
with the Medicare contracts’ pension segmentation requirements when updating Medicare
segment assets from January 1, 1992, to January 1, 2008. Mutual identified Medicare segment
pension assets of $17,906,895; however, we determined that the Medicare segment pension
assets were $22,471,233 as of January 1, 2008. As a result, Mutual understated the Medicare
segment pension assets by $4,564,338. The understatement occurred primarily because Mutual
understated the Medicare segment’s contributions and transferred prepayment credits.

In addition, Mutual did not identify Medicare’s share of the Medicare segment excess pension
liabilities associated with the termination of the Medicare contract. We determined that
Medicare’s share of the Medicare segment’s excess pension liabilities was $816,080 as of
January 1, 2008.

RECOMMENDATIONS

We recommend that Mutual:

   •   increase Medicare segment pension assets as of January 1, 2008, by $4,564,338, and

   •   recognize $816,080 as Medicare’s share of the Medicare segment’s excess pension
       liabilities.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Mutual concurred with our first recommendation but
did not concur with our second recommendation. Specifically, Mutual disagreed with our
calculations of Medicare’s share of the Medicare segment’s excess pension liabilities. Mutual’s
comments are included in their entirety as Appendix C.

Our calculations are based on the Medicare segment’s accrued liabilities determined under the
accrued benefit method as required by the CAS. Accordingly, we maintain that our findings and
recommendations are valid.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Mutual of Omaha Insurance Company and Medicare ............................................ 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation ............................................................................................. 1
              Pension Closing Agreement .................................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

          PENSION CLOSING AGREEMENT................................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 4
              Federal Requirements ............................................................................................. 4
              Contributions and Transferred Prepayment Credits Understated ........................... 5
              Earnings, Net Expenses Understated ...................................................................... 5

          MEDICARE SEGMENT EXCESS PENSION LIABILITIES .......................................... 5
               Federal Requirements ............................................................................................. 5
               Medicare Segment Excess Pension Liabilities as of January 1, 2008 .................... 6
               Medicare’s Share of Excess Pension Liabilities as of January 1, 2008 .................. 6

          RECOMMENDATIONS .................................................................................................... 7

          AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ..... 7

APPENDIXES

    A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR MUTUAL OF
       OMAHA INSURANCE COMPANY FOR THE PERIOD JANUARY 1, 1992, TO
       JANUARY 1, 2008

    B: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

    C: AUDITEE COMMENTS




                                                                     iii
            Glossary of Abbreviations and Acronyms

Mutual   Mutual of Omaha Insurance Company
CAS      Cost Accounting Standards
CMS      Centers for Medicare & Medicaid Services
FAR      Federal Acquisition Regulation
WAV      weighted average value




                                iv
                                        INTRODUCTION

BACKGROUND

Mutual of Omaha Insurance Company and Medicare

Mutual of Omaha Insurance Company (Mutual) administered Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until
the contractual relationship was terminated on November 5, 2007. The effective closing date for
the Medicare segment was January 1, 2008.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts. Furthermore, in situations such as contract terminations, the Medicare contracts
require contractors to identify excess Medicare pension assets/liabilities, in accordance with
CAS 413.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. Additionally, the contracts
require Medicare segment assets to be updated for each year after the initial allocation in
accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

Pension Closing Agreement

In resolution of our prior pension segmentation report (A-07-94-00742, issued July 17, 1995),
CMS prepared and provided Mutual with a pension closing agreement to establish a final
settlement of the January 1, 1992, Medicare segment assets. As of the conclusion of our
fieldwork, this closing agreement had not been executed.




                                                 1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Mutual complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    using the January 1, 1992, Medicare segment asset value established by the pending
        pension closing agreement between Mutual and CMS,

   •    updating the Medicare segment’s pension assets from January 1, 1992, to
        January 1, 2008, and

   •    determining Medicare’s share of the Medicare segment excess pension assets/liabilities
        as a result of the termination of the Medicare contract.

Scope

We reviewed Mutual’s use of the January 1, 1992, Medicare segment asset value established by
the pending pension closing agreement; Mutual’s identification of its Medicare segment;
Mutual’s update of Medicare segment assets from January 1, 1992, to January 1, 2008; and the
Medicare segment’s final liabilities as of January 1, 2008.

Achieving our objective did not require us to review Mutual’s overall internal control structure.
We reviewed controls relating to the identification of the Medicare segment, the update of the
Medicare segment’s assets, and the Medicare segment’s final assets and liabilities to ensure
adherence to the Medicare contracts, CAS 412, and CAS 413.

We performed fieldwork at Mutual’s office in Omaha, Nebraska, during June 2008 and July
2009.

Methodology

To accomplish our objectives, we took the following steps:

   •     We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   •     We reviewed the information prepared by Mutual’s actuarial consulting firm. This
         information included the pension plan’s assets, liabilities, normal costs, contributions,
         benefit payments, investment earnings, and administrative expenses. We used this
         information to calculate the Medicare segment assets.

   •     We obtained and reviewed the pension plan documents, annual actuarial valuation
         reports, and Department of Labor/Internal Revenue Service Forms 5500 used in
         calculating the Medicare segment assets.



                                                 2
   •    We interviewed Mutual staff responsible for identifying the Medicare segment to
        determine whether the segment was properly identified in accordance with the Medicare
        contracts.

   •    We reviewed Mutual’s accounting records to verify the segment identification and
        benefit payments made to the Medicare segment.

   •    We reviewed Closing Agreement PEN-01 pending between Mutual and CMS. We used
        this information to identify the Medicare segment assets as of January 1, 1992.

   •    We reviewed controls relating to the Medicare segment’s final assets and liabilities as
        of January 1, 2008.

   •    We provided the CMS Office of the Actuary with the actuarial information necessary
        for it to calculate the Medicare segment pension assets and the Medicare segment
        excess pension liabilities as of January 1, 2008.

   •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of Mutual’s pension costs claimed for
Medicare reimbursement (A-07-11-00348) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Mutual used the January 1, 1992, Medicare segment asset value established by the pending
pension closing agreement between Mutual and CMS; however, Mutual did not always comply
with the Medicare contracts’ pension segmentation requirements when updating Medicare
segment assets from January 1, 1992, to January 1, 2008. Mutual identified Medicare segment
pension assets of $17,906,895; however, we determined that the Medicare segment pension
assets were $22,471,233 as of January 1, 2008. As a result, Mutual understated the Medicare
segment pension assets by $4,564,338. The understatement occurred primarily because Mutual
understated the Medicare segment’s contributions and transferred prepayment credits.

In addition, Mutual did not identify Medicare’s share of the Medicare segment excess pension
liabilities associated with the termination of the Medicare contract. We determined that
Medicare’s share of the Medicare segment’s excess pension liabilities was $816,080 as of
January 1, 2008.




                                               3
PENSION CLOSING AGREEMENT

CMS prepared and provided Mutual with a pension closing agreement and related supporting
documentation to establish a final settlement of the January 1, 1992, Medicare segment assets.
Although the pension closing agreement had not been executed by the conclusion of our
fieldwork, Mutual’s computations used the January 1, 1992, Medicare segment asset value
established by the pending agreement. Our own computations for this current review are also
based on the January 1, 1992, Medicare segment asset value established by the pending
agreement.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts state that “… the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, unfunded accruals, income, benefit payments, and
expenses. For plan years beginning after March 30, 1995, the CAS requires investment income
and expenses to be allocated among segments based on the ratio of the segment’s weighted
average value (WAV) of assets to total company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Appendix A presents details of the Medicare segment’s pension assets from January 1, 1992, to
January 1, 2008, as determined during our audit. Table 1 summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.

      Table 1: Summary of Audit Adjustments in Updating Medicare Segment Assets
                                                  Per Audit  Per Mutual Difference
Update of Medicare Segment Assets
 Contributions and Transferred Prepayment Credits $4,780,647  $2,310,189 $2,470,458
 Earnings, Net Expenses                           16,315,240  14,221,360    2,093,880
Understatement of Medicare Segment Assets                                 $4,564,338




                                                 4
Contributions and Transferred Prepayment Credits Understated

Mutual understated contributions and transferred prepayment credits by $2,470,458 for the
Medicare segment. Mutual used the segment’s pension costs reimbursed by Medicare as the
basis to assign contributions to the Medicare segment. However, those pension costs were
incorrectly computed. As a result, contributions and transferred prepayment credits, and
therefore the Medicare segment’s assets, were understated.

The audited contributions and transferred prepayment credits are based on the assignable pension
costs. In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit.

Earnings, Net Expenses Understated

Mutual understated investment earnings, less administrative expenses, by $2,093,880 for the
Medicare segment, because it used incorrect contributions and transferred prepayment credits (as
discussed just above) to develop the Medicare segment pension asset base. In our audited
update, we allocated earnings, net expenses based on the applicable CAS requirements.

MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal Requirements

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations, the
Medicare contracts require contractors to identify excess Medicare pension liabilities in accordance
with CAS 413.

Cost Accounting Standards

In 1980, CMS renegotiated the Medicare contracts and expressly incorporated CAS 412 and 413
into the contracts beginning October 1, 1980.

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.



                                                 5
       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs ….

       (ii) … The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).

       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

Medicare Segment Excess Pension Liabilities as of January 1, 2008

Mutual did not identify the Medicare segment excess pension liabilities associated with the
termination of the Medicare contract as of January 1, 2008. We calculated the excess pension
liabilities to be $816,080 as of that date. Table 2 summarizes our calculations of the Medicare
segment excess pension liabilities.

                     Table 2: Medicare Segment Excess Pension Liabilities
                                                               Per Audit
          Medicare segment assets as of January 1, 2008          $22,471,233
          Accrued liabilities of segment participants            (23,287,313)
          Medicare segment excess pension liabilities                (816,080)

Medicare’s Share of Excess Pension Liabilities as of January 1, 2008

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension liabilities is
addressed by CAS 413.50(c)(12)(vi), which states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount
       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of
       years representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost



                                                6
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique. [Emphasis added.]

Medicare’s Share of the Excess Pension Liabilities

Mutual did not identify Medicare’s share of the Medicare segment excess pension liabilities
associated with the termination of the Medicare contract as of January 1, 2008. We determined
that Medicare’s share of the Medicare segment excess pension liabilities was $816,080.

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during both the previous and the current
pension audits. Appendix B shows our calculation of the Medicare segment’s aggregate
Medicare percentage; Table 3 shows our calculations of Medicare’s share of the excess
liabilities.

                  Table 3: Medicare’s Share of Excess Liabilities
                 Excess Medicare       Aggregate Medicare         Excess Liabilities
              Segment Liabilities (A)     Percentage (B)           Attributable to
                                                                  Medicare (A x B)
Per Audit                 ($816,080)                 100.00%             ($816,080)

RECOMMENDATIONS

We recommend that Mutual:

   •   increase Medicare segment pension assets as of January 1, 2008, by $4,564,338, and

   •   recognize $816,080 as Medicare’s share of the Medicare segment’s excess pension
       liabilities.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Mutual concurred with our first recommendation but
did not concur with our second recommendation. Specifically, Mutual disagreed with our
calculations of Medicare’s share of the Medicare segment’s excess pension liabilities. Mutual
stated that “… the adjustment due for the closing of the Medicare segment must be calculated on
the basis of a plan termination.” Mutual also indicated that it will discuss with CMS the
purchase of annuities to settle the benefit obligations of the Medicare segment.

Mutual’s comments are included in their entirety as Appendix C.

After reviewing Mutual’s comments, we maintain that our findings and recommendations are
valid. Because Mutual did not terminate its pension plan, it is incorrect in stating that the
adjustment must be calculated on the basis of a plan termination. Our calculations followed the


                                                7
segment closing provisions of the CAS. With regard to the final liabilities, we note that as of the
time of our preparation of this final report, Mutual had not purchased any annuities to settle the
benefit obligations of the Medicare segment. We based our calculations on the Medicare
segment’s accrued liabilities, determined under the accrued benefit method as required by the
CAS.




                                                 8
APPENDIXES
                                                                                                          Page 1 of4




                    APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR 

                                MUTUAL OF OMAHA INSURANCE COMPANY 

                           FOR THE PERIOD JANUARY 1, 1992, TO JANUARY 1, 2008 


                 Description                  Total Company        "Other" Segment                  Medicare Segment

Assets January 1, 1992                 1Ll        $264,866,603         $258,671,145                        $6,195,458

Transferred Prepayment Credits         'll                  0                     0                                 0
Contributions                          J!.          4,154,109             4,154,109                                 0
Earnings                                ~          26,586,012            25,947,393                          638,619
Benefit Payments                        ~L        (19A71,916)           (19,586,178)                         (85,738)
~~Ee,nses                        ..   :6/1
                                 ~ ~.J~~=,~         J~3}2554)             (421,188)                          (1 0!~~62
Transfers                              1.t                    0             (10,146)                          10!146

Assets January 1, 1993                            275,503,254           268,755,135                        6,748,119

Transferred Prepayment Credits                              0                     0                                 0
Contri buti ons                                     8,597,302             8,597,302                                 0
Earnings                                           27,486,224            26,795,783                          690,441
Benefit Pay~.~nts                                 (20,242,40~L          (20!22?~!~~}) .                      (11,,183)
Expenses                                             (430,286)1             (41?,477>i                       (10,809)
Transfers                                                   0                (59,825):                        59,825

Assets January1~!??~_                             290,914,090           283,443,697 .                      7,470,393

Transferred Prepayment Credits                              0                                                      0
Contributions                                       8,745,945            .8,745,945                                0
Earning~                                           22,730,947 ..         22,1?~,~}3.                         596,714
Benefit Payments                                  (20,165,021)          (20,137,721)                         (27,300)
Expenses                                             (452,961)             (441,070)                         (11,891)
Transfers                                                   0               (18,243)                          18,243

Assets January 1, 1995                                                  293,726,841                        8,046,159

Transferred Prepay~el1tCredits                              0                                                      0
Contributions                                       9,114,637              9,114,637                               0
Earnings                                           35,691,282           .~~,726,131                          965,151
Benefit PaYll1ents                                (21,197,333)          (21 ,018,~5~).                      (178,679)
Expenses                                             (456,095)             (443,761}i                        (12,334)
Transfers                                                   0              (105,010)                         105,010

Assets January            1996                    324,925,491           316,000,184 .                      8,925,307

Transferred Prepayment Credits                              0                             0                        0

Contributions                                      33,789,310            33,789,310                                0

EaTl1i..l1g~.~ ........                            34,350,339            33,421,797
                                                                            .. ..........
                                                                              ~     -~+
                                                                                            .   

                                                                                                             928,542

Benefit Payments                                  .(~~,7~?,983)i        (22,488,719) .                      (257,264)
Expenses                                             (~47,337)             (435,245)                         (12,092)
Transfers                                                     0:              (24,075)                        24,07?

Assets January l, 1997                            $369,87l ,820        $360,263,252                        $9,608,568
                                                                                                                Page 2 of4




                 Description           Total Company             "Other" Segment                          Medicare Segment

   Assets January 11) 997                  $369,871,820               $360,263,252                               $9,608,568

   Transferred Prepayment Credits                      0                            0                                     0
   Contributions                               7,972,335                    7,972,335                                     0
.... E:~~i'!~s                             .. n1Q I4.J.45             16,Q~5,l}.8 ...                               9621027
     Benefit Payments                       (2~,128,260),             (23,789,333):                                (338,927)
     Expenses                                   (774,141)                (753,874)                                  (20,267)
     Transfers                                           o·              (141,737)                                  141,737

   Assets January 1, 1998                   389,955,899               379,595,761                                10,360,138

   Transferred Prepayment Credits                     0                         0                                         0
   Contributions                             68,068,955                68,068,955                                         0
   Earnin~s                                  27,254,568 :              26,526,717                                   727,851
   Ben~fit~~ym~!1ts                       . . . F~.!200,~~?2l.        t~5,'!nJ~!2): ....                         ...J42.2!'! 1.~.
   Expenses 
                                   (433,593)'               (422,014)                                    (11,579)
   Transfers 
                                         0                 (207,410),                                   207,410

   Assets January 1,.1999                  458,944,992                448,090,590                                10,854,402

   Transferred Prepayment Credits                     0                  (650,876):                                 650,876
   Contributions                             12,971,440                12,971,440                                         0
   Earnin~s                                  52,461,477                511144.,872                                1,316,605
   Benefit Payments 
                       (26,101,400)              (25,661,374)                                 (440,026)
   Expenses 
                                  (251,347)                 (245,039)                                   (6,308)
   Transfers 
                                           o·               197,889 .                                (197,889)

   Assets January 1,2000                   498,025,162                485,847,502                               12,177,660

   Transferred Prepayment Credits                      0                 (724,947)                                  724,947
   Contributions                             38132.2,115               381399,.115                                        0
   Earnings                                   9,807,834                 9,553,160                                   254,674
   Benefit Payments                         (26,089,901) .            (25,698,810)                                 (391,091)
   Expenses                                    (143,605)                 (139,876)                                   (3,729)
   Transfers                                           0                 (140 1350)                                 140,350

   Assets January 1,2001                   519,998,605                507,095,794                               12,902,811

   Transferred..P.r~pat1Een.~~r~.~ts                                  ~"=  •. -"
                                                                                 (824,316)1i
                                                                             ='~M"_   - ""   "~-.~   '"
                                                                                                                    82.~}}~.
   Contributions                             12,~14,~62i                  12,414,462                                        0
   Earnings                                  (1,571,741 )             . . (1,530,103)'                              (41,638)
   Benefit PaYlT\ents 
                     (26,696,90~jl              (26,305,650) :                              (391,252)
   Expt:.,!ses 
                               .(3..68!.?~6L.                    (~~8,2?n:                           (9..!762)
   Transfers 
                                           0                         (4,748):                           4,748

   Assets January I, 2002                  $503,775,678              $490,486,462                               $13,289,216
                                                                                                           Page 3 of4




               Description            Total Company                   "Other" Segment                Medicare Segment

Assets Januiiry 1,2002                    $503,775,678·                    $490,486,462·                   $13,289,216

Transferred Prepli'yrnent<:::E~dits                         0               (1,1441031)1                     1,144,031
Contributions                              i8,4~~.?143                      .~~!~8~':3.4:3~~,. w                     0
Earnings                                   (9,508,381) .                     (9,236,587):                     (271,794)
Benefit Payments                          (27,546,513)                     (26,980,060);                      (566,453)
Expenses                                     (260,789)                         (253,334)                        (7,455)
Transfers                                           0                            (7±'.~2Z4                      ?~.~427

Assets January I, 2003                    514,942,338                      501,280,366 !                    13,661,972
                                                                                          .~--j

Transferred Prepaym~nt Credits                              o·                 (150,068)                      150,068
Contributions                              2~!200,OOO           .           ~O,200,OOO                              0
Earnings                                   78,784,303                       76,708,947                      2,075,356
Benefit Pay.rnents                        (~~,34~!~06r .                   (~?,86~!~09)J.                    (483,197)
.E:~penses                                 .W. (262,411)
                                                 ..•......••. O",!w            (255,499)~                       (~,91~2
Transfers                                                                      (378,334)1                     378,334

Assets 1anuary I, 2004                    585,320,224                      569,544,603                     15,775,621
                                                                                           <--"-~,




Transferred Prepayment Credits                      0                         (984,479)                        984,479
Contributions                              20,000,000                       20,000,000 '                             0
EarningS                                   68,984,384                       67,014,391                       1,969,993
Benefit P.~yments                         PO) 11,185)                      (29,~23,391)                       (587,794)
E"penses                                     (264,960).                        (257,394)                        (7,566)
Transfers                                           0                          (639,297)1                      639,297

Assets 1an\Jliryl,~~g~.5~..               643,928,463                      625,154,433                     18,774,030

Transferred Prepayment Credits                        0                              0                               0
Contributions                              16,000,000                       16,000,000                               0
Earning~.                                  ?:3,22?!! 27                     ?.!.A7~1.?.17..L                 1,55~1,910
Benefit Payments                          (31,855,276)                     (31,231,835) .                    (623,441)
Expenses                                     (252,555).                        (245,191)1                      (7,364)
Transfers                                             0                          73,898                       (731.898)

Assets Januiiry 1,2006                    681,047,759                      661,426,522 ;                   19,621,237

Transferred Prep~Yr:nent Credits                            0                        0                              0
Contributions                             . 66,0~O,0~0                      66,000,000                              0
Earnings                                    84,289,445                      81,868,136 ;                    2,421,309
Benefit Payments                          (32,467,119)                     (31,769,702)                      (697,417)
Expenses                                      (297,073)                       (288,539)'                       (8,534)
Transfers                                            O.                           2?~~37                      (27,037)

Assets January 1, 2007                    $798,573,012.                   $777,263,454                     $21,309,558
                                                                                                                       Page 4 of4




                  Description                            Total Company             "Other" Segment            Medicare Segment

                                                              $798,573,012                $777,263,454:               $21,309,558
                                                                                                        ,
     Transferred Prepayment Credits                                       0                   (301,930Y                   301,930
     Contributions                                                        0                          0                          0
     Earnings                                                   61,~O9,111                 59,~}9,656                   1,669,455
     Benefit Payments                                          (37,337,262);              Q6,5 8~,091)j                  (74?,171)
     Expenses                                                            0                          0                           0
     Transfers                                                           0                     60,539 i                   (60,539)

     Assets January 1,2008                                    $822,544,861                $800,073,628 i              $22,471,233
     Per Mutual                                8/i            $822,544,861 :              $804,637,966 :              $17,906,895
     Asset Variance                            2l                       $0                 ($4,564,338) ,             $4,564,338


FOOTNOTES

 lL In resolution of our prior pension segmentation report (A-07-94-00742, issued July 17, 1995), the Centers for Medicare &
     Medicaid Services prepared and provided Mutual of Omaha Insurance Company (Mutual) with a pension closing agreement
     and related supporting documentation. We obtained the January 1, 1992, Medicare segment asset value from those
     documents. The amounts shown for the "Other" segment represent the difference between the Total Company and the
     Medicare segment. All pension assets are shown at market value.

 21 	Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding
     requirements before current year contributions in order to reduce interest costs to the Federal Government. Prepayment
     credits are transferred to the Medicare segment as needed to cover funding requirements.

 JL We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Laborllnternal
     Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare segment based on the ratio of the
     Medicare segment funding target divided by the Total Company funding target. Contributions in excess of the funding
     targets were treated as prepayment credits and accounted for in the "Other" segment until needed to fund pension costs in the
     future.

 41 	 We obtained net investment earnings from documents prepared by Mutual's actuarial consulting firm. We allocated
     investment earnings based on the ratio of the segment's weighted average value (W AV) of assets to Total Company WAV of
     assets as required by the Cost Accounting Standards (CAS). For years 1992 through 1995 we accepted Mutual's
     methodology of allocating investment earnings based on the WAV method.

 'jf. We accepted the Medicare segment benefit payments provided by Mutual.

 61 We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 1J. We accepted the Medicare segment participant transfer adjustments provided by Mutual.

 ~   We obtained total asset amounts as of January 1,2008, from documents prepared by Mutual's actuarial consulting firm.

 9!.. 	 The asset variance represents the difference between our calculation of Medicare segment assets and Mutual's calculation of
     Medicare segment assets.
      APPENDIX B: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE 


                                    Medicare Segment 

                                     Pension Costs 
                                    Total Medicare
                                      Charged to 
                                     Segment Pension                           Medicare Aggregate
    Fiscal Year                        Medicare                                              Costs                                  Percentage
                                                                                                  (B)                                (~IB) 21


        1990 

        1991 

        1992 

        1993 

        1994 

        1995 
             +,.. ,
               .e" . . . . .


        1996 

   ee~""'~


        1997
        1998                                                              OJ 

                                              488,,?~5?                                                 488,157
                                                                                                         ,..          

                                                                                                               ~,.",.e!ee

                                              706,429                                                   706,429 '
                                              799,474                                                   799,474
                                            1,_Q§4,12,,2                                  ...         1
                                                                                                ""~e.~eeeee'
                                                                                                                102
                                              398,559 ,
                                             e _ _ ~~,~_~~              ""'~'''''~_
                                                                                                        398,559 i
                                                                                            e,~~eecc~,.,,~.,e,l._



        2004                                  775,876 i    .eeeeee~ee,,,_0-
                                                                                                        775,876        i ..
                                                                                                           .. eee eeeeeeeeeT'
                                                                                                      ~~.""'                '~




        2005                                  246,120 i
                                                ,_~   _____ ,   _,<4"   ",,"~~   <1­                     246, 120,.;"ee.".",,_
        2006
        2007                                                                                             226,448

                                                                                                     $4,705,165!                               100%



FOOTNOTES

 1L In resolution of our prior pension costs claimed report (A-07-94-00743), the Centers for Medicare
   & Medicaid Services prepared and provided Mutual of Omaha Insurance Company with a
   pension closing agreement and related supporting documentation. We obtained information for
   fiscal years (FY) 1989-1991 from those documents. We obtained information for FYs 1992-2007
   during our current pension costs claimed audit (A-07-11-00348).


 21 We calculated the aggregate Medicare percentage by dividing the Medicare segment pension 

   costs charged to Medicare by the total Medicare segment pension costs pursuant to Cost 

   Accounting Standard 4l3. 

                  APPENDIX C: AUDITEE COMMENTS 



MUTUA~ O/OMAHA   h.. UllANCB CoMPANY   PAT SHIVERDECKER
Mutual of Omaha Plaza                  Senior VIce Prealdenl
Omaha, HE 68175                        Corpom. Strltegy
                                       402·3S1·2257
4023427600                             pat.lhlverdeckeremulu.lofom.hl.com
mutualoComaha.com




March 15, 2011

By U.S. Mall and Email
Mr. Patrick J. Cogley
Regional InSjector General for Audit Services
601 East 12 Street
Room 0429
Kansas City, MO 64106

Re: Report Number A-07·11-00347

Dear Mr. Cogley:

This letter provides the written comments of Mutual of Omaha Insurance Company
to the draft Report referenced above issued by the Office of Inspector General
regarding the OIG's review of the assets and liabilities of the Medicare segment of
Mutual's pension plan for the period of January 1, 1992 to January 1, 2008.

Mutual concurs with the recommendation in the Report that Mutual increase the
assets allocated to the Medicare segment by $4,564,338. Mutual will Include the
recommended amount in the total assets of the penSion plan that are allocated to
the Medicare segment.

Mutual does not concur with the recommendation that Mutual recognize $816,080 as
CMS' share of the Medicare segment's excess pension liabilities associated with the
termination of the Medicare contract. As Mutual and CMS have discussed on a
number of occasions, it was and is Mutual's intention to terminate the portion of the
pension plan attributable to the Medicare segment by purchasing annuities to cover
the liabilities of that segment. Mutual believes that the adjustment due for the
closing of the Medicare segment must be calculated on the basis of a plan
termination. Mutual intends to discuss with CMS the purchase of annuities to
irrevocably settle all benefit obligations of the Medicare segment and CMS' share of
the excess pension liabilities based on the annuity purchase cost.

Thank you for the opportunity to provide our comments on the Report.

Sincerely,

!id~tlt--
Pat Shiverdecker
Senior Vice President
Corporate Strategy
